DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

ASSOCIATE GENERAL COUNSEL

TODD B. TATELMAN
PRINCIPAL DEPUTY GENERAL COUNSEL

MEGAN BARBERO

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

DEPUTY GENERAL COUNSEL

JOSEPHINE MORSE
DEPUTY GENERAL COUNSEL

ADAM A. GROGG
ASSOCIATE GENERAL COUNSEL

SARAH E. CLOUSE
ASSOCIATE GENERAL COUNSEL

JONATHAN B. SCHWARTZ
ATTORNEY

February 18, 2020
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

Texas, et al. v. California, et al., No. 19-1019

Dear Mr. Harris:
I am counsel of record for the U.S. House of Representatives, which is a respondent in
the above-captioned conditional cross-petition, the petitioner in No. 19-841, and a respondent
aligned with petitioner in No. 19-840. I write to inform you that, although the House disagrees
with the merits of the position advanced in the conditional cross-petition, the House acquiesces
to the conditional cross-petition so that no issue arises regarding the scope of relief the Court
may afford should it grant either or both of the petitions for certiorari filed by the House (19841) and California and the other defendant States (19-840). 1 The House reserves its right to
argue, as it has in its petition for a writ of certiorari, that Section 5000A of the Affordable Care
Act is wholly severable from the remainder of the Act.
Additionally, should the Court grant the conditional cross-petition along with either or
both of the petitions in Nos. 19-840 and 19-841, the House requests that, for the purposes of
briefing and argument, the state cross-petitioners, the individual cross-petitioners, and the United
States be aligned as respondents, and that the House and California be aligned as petitioners.
Thank you very much for your time and assistance on this matter.
Very truly yours,
/s/ Douglas N. Letter
Douglas N. Letter

1

The House takes no position on whether a cross-petition is necessary to afford respondents
their requested relief in the specific circumstances of this case.

